<html>
<title> - RESERVE COMPONENT DUTY STATUS REFORM</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                                     

                         [H.A.S.C. No. 116-20]
 
                  RESERVE COMPONENT DUTY STATUS REFORM

                               __________

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON MILITARY PERSONNEL

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 27, 2019


                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                            ______

              U.S. GOVERNMENT PUBLISHING OFFICE 
 36-881                WASHINGTON : 2020



                                     
  


                   SUBCOMMITTEE ON MILITARY PERSONNEL

                 JACKIE SPEIER, California, Chairwoman

SUSAN A. DAVIS, California           TRENT KELLY, Mississippi
RUBEN GALLEGO, Arizona               RALPH LEE ABRAHAM, Louisiana
GILBERT RAY CISNEROS, Jr.,           LIZ CHENEY, Wyoming
    California, Vice Chair           PAUL MITCHELL, Michigan
VERONICA ESCOBAR, Texas              JACK BERGMAN, Michigan
DEBRA A. HAALAND, New Mexico         MATT GAETZ, Florida
LORI TRAHAN, Massachusetts
ELAINE G. LURIA, Virginia
               Dave Giachetti, Professional Staff Member
                          Dan Sennott, Counsel
                         Danielle Steitz, Clerk
                         
                         
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Kelly, Hon. Trent, a Representative from Mississippi, Ranking 
  Member, Subcommittee on Military Personnel.....................     2
Speier, Hon. Jackie, a Representative from California, 
  Chairwoman, Subcommittee on Military Personnel.................     1

                               WITNESSES

Barrett, Patrick J., Deputy Chief, Navy Reserve, U.S. Navy.......     5
Busch, Jerilyn B., Director of Military Compensation Policy, 
  Department of Defense..........................................     3
James, MajGen Bradley S., USMC, Commander, Marine Forces Reserve, 
  U.S. Marine Corps..............................................     6
Roper, MG A.C., USA, Deputy Chief, Army Reserve, U.S. Army.......     4
Scobee, Lt Gen Richard W., USAF, Chief, Air Force Reserve, U.S. 
  Air Force......................................................     5
Taheri, Maj Gen Michael R., USAF, Director of Joint Staff, 
  National Guard Bureau..........................................     4

                                APPENDIX

Prepared Statements:

    Barrett, Patrick J...........................................    41
    Busch, Jerilyn B.............................................    26
    James, MajGen Bradley S......................................    49
    Roper, MG A.C................................................    37
    Scobee, Lt Gen Richard W.....................................    44
    Speier, Hon. Jackie..........................................    25
    Taheri, Maj Gen Michael R....................................    33

Documents Submitted for the Record:

    Council of Governors Letter..................................    59

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mrs. Davis...................................................    63
    Mr. Gallego..................................................    64
    
                  RESERVE COMPONENT DUTY STATUS REFORM

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                        Subcommittee on Military Personnel,
                         Washington, DC, Wednesday, March 27, 2019.
    The subcommittee met, pursuant to call, at 3:58 p.m., in 
room 2118, Rayburn House Office Building, Hon. Jackie Speier 
(chairwoman of the subcommittee) presiding.

OPENING STATEMENT OF HON. JACKIE SPEIER, A REPRESENTATIVE FROM 
   CALIFORNIA, CHAIRWOMAN, SUBCOMMITTEE ON MILITARY PERSONNEL

    Ms. Speier. The Subcommittee on Military Personnel of the 
Armed Services Committee is called to order. I want to welcome 
today all of our panelists who will be testifying.
    We are going to hear from those who lead the Reserve 
Components, the service members that will be most personally 
affected by the proposed changes to the Reserve Component call-
up authorities.
    The patchwork of 30 duty statuses and accompanying benefits 
have needed modernization and streamlining for a long time. And 
these necessary changes are ones that we are anticipating you 
are going to provide great guidance and light to us today.
    I want to thank our witnesses for sharing their views on 
how these changes will improve and streamline Reserve Component 
activations. They should make orders and benefits more 
consistent and predictable for our Reserve Component members 
and their families.
    I worry that the confusion generated by having so many duty 
statuses is having an effect on retention in the Reserve 
Components. And I hope you will address that in your comments.
    The reform of these authorities and benefits have been 
addressed by multiple commissions over the years, including the 
Commission on the National Guard and Reserves in 2008 and the 
Military Compensation and Retirement Modernization Commission 
in 2015, to no avail.
    Finally, Congress directed the Department to come up with a 
plan to address duty status reform in the 2016 NDAA [National 
Defense Authorization Act]. The reform concept before us today 
is the result of that direction. For too many years, activation 
authorities were added piecemeal for any number of reasons 
without thought for maintaining a coherent and usable system.
    Some tweaks have responded to the changing ways the Reserve 
Component has been employed over the last 18 years of conflict. 
Due to these changes' partial, reactive nature, the activation 
of any portion of the Reserve Component has turned into a 
jumble of statutes and pre- and post-mobilization benefits that 
are not easily understandable by our service members or their 
families.
    The reforms presented today must simplify this system of 30 
different call-up authorities. I believe that reducing the 
call-up authorities to four categories, as you propose, would 
accomplish that. But benefits must not be lost and must 
maintain parity with those for service members doing the same 
job.
    I am interested to hear from you about how these reforms 
address the inequities and disruptions in pay, benefits, and 
medical care that have impacted the Reserve Component, as well 
as your thoughts on benefits parity in the proposed system.
    [The prepared statement of Ms. Speier can be found in the 
Appendix on page 25.]
    Ms. Speier. Before I introduce our first panel, let me 
offer Ranking Member Kelly an opportunity to make his opening 
remarks.

     STATEMENT OF HON. TRENT KELLY, A REPRESENTATIVE FROM 
MISSISSIPPI, RANKING MEMBER, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mr. Kelly. Thank you, Chairwoman Speier, and thank you for 
working so hard to help us have this hearing. I really 
appreciate it.
    I want to thank our witnesses for being here today and your 
continued service to our great Nation. Congress has worked 
closely with the Department of Defense over the past several 
years to improve personnel policy.
    Our service men and women who sacrifice so much deserve an 
understandable, predictable personnel management system. Much 
of the reform in this area in the past has focused on the 
Active Component. But the Reserve Component also needs 
attention.
    The multitude of statutory authorities and duty categories 
currently in law causes unnecessary confusion and inequities in 
pay and benefits. In fact, we have heard several examples of 
two reservists mobilized for the same mission in the same 
location yet receiving drastically different benefits simply 
because of their duty status.
    In addition, we have heard of multiple complaints regarding 
a disruption in pay and benefits as service members transition 
from one status to another.
    That is why the fiscal year 2016 NDAA included a provision 
that required the Department of Defense to conduct an 
assessment of potential for consolidating authorities. I 
appreciate the work that the Department has done so far and I 
am glad the Department has included the Reserve Components and 
the National Guard Bureau in the discussions as they explored 
these reforms.
    I understand that National Guard has expressed some 
concerns regarding a perception that earlier drafts of the 
legislation may have modified the authorities of Governors to 
control our National Guards. I want to caution you here.
    Adjutant generals are, and when I say I don't mean all, but 
I mean the majority of them by a heavy majority, are very 
concerned about losing those authorities. I encourage the 
Department and the National Guard to work together to resolve 
any remaining concerns.
    I am optimistic that the consolidation of duty statuses 
will not only help with service member pay and benefits parity 
but will also make it easier for combatant commanders to make 
troop requests by simplifying determination of the appropriate 
duty status.
    I look forward to hearing from our witnesses today about 
the current challenges associated with having nearly 30 duty 
statuses and how consolidation will remedy these challenges. 
Specifically, I am interested to hear more about how the 
changes will ensure equitable treatment regarding pay, benefits 
for service members, and improved predictability.
    I am also interested to hear how the current system impacts 
combatant commanders looking to mobilize Reserve units.
    And finally, I would like to learn more about the process 
the Department used to come up with the consolidated statuses 
and how the Department addressed concerns and differences 
throughout the process, particularly related to the National 
Guard and the adjutant generals.
    With that, I yield back.
    Ms. Speier. We are in a period of time where we are going 
to have votes relatively soon. So what I would like to 
recommend is that you forego your oral statements and your 
written comments will be made part of the record. And I want 
you to give us, if you can, a 2-minute Cliff Note version of 
what you think is the most important for us to glean today.
    We will start with you, Ms. Busch, 2 minutes.

      STATEMENT OF JERILYN B. BUSCH, DIRECTOR OF MILITARY 
           COMPENSATION POLICY, DEPARTMENT OF DEFENSE

    Ms. Busch. Thank you, Madam Chair. I think that the most 
important thing to glean for you goes to what you were saying. 
Today's system is so complex and arcane that it creates 
disparities in pay and benefits, disparate treatment, and 
impedes an efficient and effective use of the Reserve 
Component.
    I think that the proposal that we have as currently drafted 
addresses all of those concerns. And what it does is it creates 
the means to align pay and benefits to four broad categories of 
use and utilization of our Reserve Components.
    It creates parity across those categories. So regardless of 
the purpose that a member serves on, whether they are downrange 
in Afghanistan or fighting a wildfire in California, they will 
still receive that same pay and benefits package.
    So by simplifying and streamlining the multitude, as been 
referred to, the multitude of authorities and statuses, we 
provide the means to eliminate disruptions to provide for that 
pay inequity and to improve efficiency.
    Ms. Speier. Thank you, Ms. Busch. You did it in less than 2 
minutes. And I also want to point out that you are Director of 
Compensation Policy at the Department of Defense.
    [The prepared statement of Ms. Busch can be found in the 
Appendix on page 26.]
    Ms. Speier. Next we have Major General Mike Taheri of the 
United States Air Force, National Guard Bureau Director of 
Staff.

STATEMENT OF MAJ GEN MICHAEL R. TAHERI, USAF, DIRECTOR OF JOINT 
                  STAFF, NATIONAL GUARD BUREAU

    General Taheri. All right. Thank you, Madam Chair. Just a 
couple comments and I think Ms. Busch highlighted this very 
well in terms of the types of benefits that we would see.
    And from our perspective from the National Guard Bureau, we 
all have many stories and all of us who are serving in uniform 
have many stories of the types of disparities that take place 
and the disruption that it results in particularly for our 
members that are out there in the fight and in training 
situations. And so we firmly believe that we have to find a way 
to get those corrected.
    And one of the things that we have looked at and I have had 
a number of discussions with a number of people on this, but 
one of the things that we are being very careful of is we 
recognize that full implementation of this is going to take a 
very long time and it is going to go across many departments 
and there will have to be many adjustments that are made across 
the departments' regulations and policies.
    Through this process, National Guard senior leaders, the 
adjutants general, and the Council of Governors maintain that 
their existing authorities must remain safeguarded in any 
proposed duty status reform legislative action process.
    States and Governors are going to remain focused throughout 
this process on ensuring that they maintain accessibility and 
unique authorities with respect to the State and, you know, 
State National Guard.
    Now, we at the National Guard Bureau, I will tell you that 
we have been working collaboratively to everything that has 
come to our attention and the concerns that have come to our 
attention at the National Guard Bureau.
    We have been working very closely with OSD [Office of the 
Secretary of Defense]. We are very confident that many of those 
are being addressed and are in the process of being addressed 
and we are really very optimistic that we can find a way to 
help get this language through while we preserve those 
essential capabilities.
    So we continue to focus on that, ma'am, and that is where 
we are going from here.
    Ms. Speier. Thank you, Major General.
    [The prepared statement of General Taheri can be found in 
the Appendix on page 33.]
    Ms. Speier. Next is Major General A.C. Roper of United 
States Army, Deputy Chief, Army Reserve.

 STATEMENT OF MG A.C. ROPER, USA, DEPUTY CHIEF, ARMY RESERVE, 
                           U.S. ARMY

    General Roper. Thank you, Madam Chair, for this 
opportunity. The bottom line is our vision at the Army Reserve 
is to be the most capable, combat-ready and lethal Federal 
reserve force in the history of our Nation.
    But all of that is dependent upon our soldiers. And what we 
have assessed as we looked at this proposal that this helps us. 
It helps provide simplicity and it helps provide continuity as 
soldiers shift across this wide spectrum of almost 30 different 
authorities when they are mobilized or called into Active Duty.
    The bottom line for us is the Army Reserve--we know that we 
can make this better as a part of this team, and we have been 
involved in this since December 2015 when our first action 
officer was assigned.
    And as a member of the Secretary of the Army's Army Reserve 
Forces Policy Committee, I have been involved and received 
regular updates as a part of that committee. We would meet 
quarterly. And as the action officers worked through it, they 
would make those presentations to us.
    So we have been aware of it. We have been a part of the 
team. And we would look forward to it continuing through the 
process and coming to fruition. Thank you, ma'am.
    Ms. Speier. Thank you.
    [The prepared statement of General Roper can be found in 
the Appendix on page 37.]
    Ms. Speier. Mr. Barrett. Patrick Barrett is the Deputy 
Chief, Navy Reserve.

 STATEMENT OF PATRICK J. BARRETT, DEPUTY CHIEF, NAVY RESERVE, 
                           U.S. NAVY

    Mr. Barrett. Thank you, Madam Chair. First, I would like to 
actually thank the Office of the Secretary of Defense to try to 
wrangle in the different six to seven, if you include the Coast 
Guard, Reserve Components and get them into agreement. That is 
a high task. They have actually done a great job of doing that 
and this has been a long process for them.
    As they brought us in and they have heard of all our 
complaints, they have been able to encapsulate those and really 
put together a rock-solid plan.
    As you mentioned in the opening remarks, it has been a 
piecemeal approach. Virtually 100 years there has been a 
problem and an issue, so we have addressed each one 
individually. That is what has given us the patchwork quilt 
that we have today.
    So this effort has been very collaborative and I think we 
have hit it in a comprehensive manner to honestly just 
simplify. And I say that because the errors that we have had 
are also because of some of the clerks who actually write these 
orders to push soldiers downrange and sailors.
    It is so complicated they have a hard time trying to keep 
track of the different authorities and as they are doing just 
computer data entry. So the simplification will help from the 
administrative clerks all the way to operators that have to go 
downrange. So thank you.
    Ms. Speier. Okay, thank you, Mr. Barrett.
    [The prepared statement of Mr. Barrett can be found in the 
Appendix on page 41.]
    Ms. Speier. Lieutenant General Richard Scobee, United 
States Air Force, Chief, the Air Force Reserve.

 STATEMENT OF LT GEN RICHARD W. SCOBEE, USAF, CHIEF, AIR FORCE 
                    RESERVE, U.S. AIR FORCE

    General Scobee. Madam Chair, I tell you, both you and 
Ranking Member Kelly have codified the problem exactly right 
for what our members are going through. I will put a finer 
point on it.
    My colleagues and I are in agreement on all the things that 
have been said so far. The military, we modernize our weapons 
systems on a regular basis. The importance of this is why I am 
here today to testify in front of you because it will 
absolutely make a difference in our airmen's and their 
families' lives.
    So just like we modernize our equipment, we have to 
modernize our organization as well. And right now, we are 
continuing to operate under some obsolete rules and regulations 
that really tie our hands and the combatant commanders' hands 
when it comes to employing the Reserves and also the Air 
National Guard.
    So we need duty status reform. It is going to enhance our 
readiness. It is going to increase our flexibility and it is 
going to improve our operational utilization.
    This effort will also improve the Air Force Reserves' 
quality of life for our airmen, as I talked about a second ago.
    So these changes are going to not only do that, but they 
are going to ensure that our personnel are correctly 
compensated for their service. It will prevent disruptions in 
pay and benefits, including medical coverage for our Reserve 
Component.
    And I can tell you from experience having deployed in 2008, 
at the time I was a traditional reservist, going from where I 
was training in one status, getting ready to mobilize in 
another status, actually mobilizing and going downrange into 
Iraq and then coming home to reconstitute, I went through six 
different statuses as I was doing that.
    And me as a colonel at the time it caused a break in health 
care for my family, which if that happens to a colonel or a 
senior officer in America's Armed Forces, imagine what is 
happening to some of our younger folks that can't absorb that 
kind of shock.
    So that is why this is important and why it is so important 
that we take care of this business today. Thank you.
    Ms. Speier. Thank you, Lieutenant General.
    [The prepared statement of General Scobee can be found in 
the Appendix on page 44.]
    Ms. Speier. Now we are going to hear from Major General 
Bradley James, Chief of the Marine Corps Reserve.

 STATEMENT OF MAJGEN BRADLEY S. JAMES, USMC, COMMANDER, MARINE 
               FORCES RESERVE, U.S. MARINE CORPS

    General James. Madam Chair Speier and all the distinguished 
members of the subcommittee, thanks for having us here today. I 
am in absolutely violent agreement with everybody on this 
table, as I think we are in unison with this. This is something 
that is most needed.
    We have seen it since post-9/11 with all of our call-ups 
and our demands of our Reserves and through the transitioning 
of these and the inequities is tough. It is tough sledding for 
us especially from the administration side.
    We continue to work through these complexities. I would 
just ask that we get this right when we roll it out. The Marine 
Corps Reserves, we are in agreement that this needs to be done. 
Currently we have increased administrative responsibilities. As 
I say, we worked through that.
    We do have a higher demand for Reserves. We have 
transitioned from that Strategic Reserve to the Operational 
Reserve and we anticipate continuing to keep our Reserves busy. 
To this day and age about a third of our Reserves will go out 
to support geographic combatant commanders on an annual basis.
    The Marine Corps, we can say we fully support the OSD's 
efforts. We appreciate those efforts, and anything that we can 
do to redesign and simplify the current Reserve duty status is 
we are onboard for.
    Ms. Speier. Thank you, Major General.
    [The prepared statement of General James can be found in 
the Appendix on page 49.]
    Ms. Speier. I hope all of my colleagues witnessed that this 
was done within 2 minutes and----
    [Laughter.]
    Ms. Speier. Very impressive. So I am going to forgo asking 
my questions to the end because we are trying to beat the clock 
here. So I am going to turn it over to Ranking Member Kelly.
    Mr. Kelly. Thank you so much, Chairwoman Speier. And it 
doesn't surprise me that you guys hit it quick, so I am going 
to try to be quick because I know you guys are timely.
    Ms. Busch, you mentioned that a large number of duty 
statuses causes challenges for combatant commanders who are 
requesting Reserve Component troops and can also cause 
disconnects in programming and budgeting. Can you explain why?
    Ms. Busch. So yes, sir. I think that the answer very much 
goes to what you were talking about. When you have a myriad of 
duty statuses our combatant commanders are hampered by the 
complexity.
    They don't know with clarity the benefits that their troops 
are going to receive when they are called up. They don't know 
even the status that might be the most appropriate for the 
nature of the work that they need our members to perform.
    I believe that our proposal as it is currently constructed 
provides for that greater clarity, provides for that 
predictability and the benefits troops will be using. I mean, 
they need to be concerned about their personnel once they are 
called to duty.
    So we know that our proposal will do that and help them in 
that way and make the utilization of the Reserves that much 
more effective and efficient.
    Mr. Kelly. And you all don't have to answer it. You know, 
if somebody will answer it succinctly and if one person is the 
right person then please answer this. Under the proposed new 
statuses, what additional benefits will service members 
receive? And will reservists lose any benefits?
    Ms. Busch. So sir, I will take a stab at that. So I think 
that one of the things to go to your second question first 
about what they lose, I think they are losing today. And today 
they lose because of this complexity we have and the fact that 
it is piecemeal and there are a myriad of these statuses.
    So that when Reserve Component members and guardsmen are 
called up to perform similar work they end up with different 
benefits. Under the proposal that we have constructed in our 
initiative, we eliminate that disparity.
    We assign pay and benefits according to the categories. And 
as long as a member remains in a particular category their pay 
and benefits package doesn't change. And they don't have to go 
from status to status, so it streamlines that.
    So I think under the proposal, our concept as it is 
currently drafted, we create the winners for our members.
    Now in terms of, you know, what we are doing with benefits, 
again, I go to what I just talked about in aligning the 
benefits to the nature of the work they perform. And that is 
how we get to that.
    Mr. Kelly. Did anyone else have anything to add to that? 
Yes, sir?
    General Scobee. Ranking Member Kelly, I will tell you from 
my perspective as I go out and talk with our airmen, this is 
what I hear all the time. It is about doing what is right and 
being fair to our airmen as we execute our duty statuses. That 
is what everybody is looking for.
    As you mentioned in your opening remarks, having two people 
deployed at the same time in the same place under different 
statuses and being compensated differently, that causes a lot 
of misunderstanding of how we are taking care of our airmen and 
their families, which is so important to us.
    So I really think it boils down to whatever we do when we 
change this, our airmen, our sailors, our soldiers, and Marines 
have to see it as fair.
    Mr. Kelly. Okay. And you know, and one of the things I just 
want to make sure we address, and I am sure that we did, but 
many times a duty status determines what type of RFI [Rapid 
Fielding Initiative] and other things you get that you get to 
carry forward on the deployment.
    So if you are in one status you get RFI which is cold 
weather gear and those things and if you are not you don't, 
which means you don't have the cold weather gear. So when a 
unit from Florida goes to Kosovo they probably don't have that 
stuff in their regular kit that they are issued. And so just 
make sure that we are addressing the RFI issues that I have 
seen in the past based on the different duty statuses.
    This question is for Ms. Busch and Major General Taheri. 
The adjutant generals of several States are concerned about a 
perception that these reforms may erode their authority and the 
Governors' authority over management of the National Guard. Can 
you explain that concern and how you addressed it?
    And, you know, Major General Roper mentioned that he got 
quarterly updates in this whole process, you know, and you 
might answer why we didn't have the adjutant generals getting 
these updates so they are not getting one big 1,000-page 
document at the end?
    Ms. Busch. So Ranking Member Kelly, I will start off and 
then turn to my colleague that we did try and be as 
collaborative as we possibly could throughout this entire 
process. And we have worked closely with our colleagues in the 
National Guard and all the Reserve Components and across 
government, as a matter of fact.
    We have worked with the Department of Veterans Affairs and 
we have worked with OMB [Office of Management and Budget] and 
CBO [Congressional Budget Office]. So we have tried to be 
inclusive, open and transparent. But we are aware of concerns 
that the TAGs [the adjutants general] and the Governors have 
raised.
    And as my colleague, General Taheri, said at the outset, we 
are working on those collaboratively now to address those 
concerns and to make sure that we maintain the line of 
demarcation between Federal authority and State authority and 
jurisdiction.
    And so to the extent that there have been issues and 
concerns identified to us, we are working to address those 
concerns. And we will continue to work collaboratively to 
address any others that may arise as we move forward.
    Mr. Kelly. Major General Taheri.
    General Taheri. Yes, sir. So from my perspective absolutely 
right. I know this process has been ongoing for a number of 
years. There have been a number of briefings. There have been 
times that we have presented the briefings to the adjutants 
general.
    Now in all fairness to the adjutants general on that, when 
they see a briefing slide and they see PowerPoint 
presentations, that doesn't necessarily show them the exact 
verbiage that is going to show up in the language that may 
change the law fundamentally, right?
    So I think that the learning experience to some extent here 
in this process at least for me has been and for many of us on 
the National Guard side is the earlier we can bring them into 
the process and kind of get that fresh set of eyes onto what we 
have of the document, the better it is toward the end of the 
document, right?
    So what we are in the process of doing now is going through 
everything that we have identified. Our understanding, and as 
you all know, we don't yet have a final document, but we hope 
we are somewhat close to getting the final document. As we put 
inputs in anywhere that we have identified challenges we are 
working to mitigate those challenges that might be in the 
document.
    Mr. Kelly. Okay.
    General Taheri. Because I think it becomes important as all 
of us sitting at this table have said, there is a lot riding on 
this for our members out there. So I think the adjutants 
general want to get there, too. We just need to kind of 
mitigate some of those concerns.
    Mr. Kelly. Thank you. And I have my final question is just 
does anybody know what the cost, the anticipated cost of this 
duty status reform is?
    Ms. Busch. Well, sir, I am afraid that because our proposal 
is still with OMB, I am not able to talk about that here today. 
But I can tell you that as we developed the details of our 
proposal, we did take cost into account. And we examined all 
the cost implications.
    Mr. Kelly. And I will just tell you on the process, final 
comment, is, you know, yesterday the Speaker celebrated 40 
years of C-SPAN being on the floor of the House of 
Representatives and the transparency of seeing the sausage 
made. And I would just say everybody needs to be able to see 
the sausage made, especially people who have a vested interest.
    And with that, I yield back.
    Ms. Speier. Thank you, Mr. Kelly.
    Now, based on who was here at the gavel and seniority, we 
go to Mr. Cisneros.
    Mr. Cisneros. Thank you all for being here today.
    Thank you, Madam Chairman.
    You know, I spent half of my time in the Navy as a full-
time support officer. So, you know, every time somebody would 
get activated or would go and do something, they never knew 
anything about categories, right?
    All they knew was pretty much was that whether they were 
doing their duty weekend and they were doing an AT [annual 
training] or they got involuntary recalled or they volunteered 
to get recalled. Why does it have to be any more complicated 
than that?
    And anybody can answer that question.
    General Roper. So sir, I will take a stab at that. Under 
this current system when that soldier walks out the door, 
family waves good-bye and he or she deploys, let us say it is a 
unit deployment. That is under one authority.
    As what happened with me when I was deployed, I had one 
soldier when the deployment was ending that soldier volunteered 
to stay longer. Well, now the earlier deployment is over, now 
that soldier has to have a second set of orders under a 
different authority, which now benefits could change.
    And for the sake of discussion, if that soldier was to have 
gotten injured, then that would be a third set of orders. But 
the only thing the family saw was their loved one walked out 
the door.
    They don't even see all the bureaucratic nightmares that 
are occurring because every time an order shifted it curtailed 
one order and implemented a new order, that is a potential 
point of failure because someone has to input and do all the 
administrative work that goes with that.
    So under this proposal as written, it is all about the 
purpose. When that soldier walked out the door on an 
involuntary mobilization and then voluntarily stayed longer and 
then was injured, all of that is on a single set of orders. And 
so that simplifies it for us. There is continuity in pay and 
benefits, and we think that is a win for our service members 
and our families.
    But to talk, when we look back and say how did we get here, 
it has just been piecemeal every time we added a new authority, 
every time we added a new purpose for call-ups. And now we look 
back and now we see we have almost 30 different types of 
authorities with all the potential disasters that can occur 
with that.
    Mr. Cisneros. Okay.
    General Roper. Thank you, sir.
    Mr. Cisneros. So how complicated is it going to be to go 
from 30 to 6 categories?
    Ms. Busch. So sir, I would answer that by saying that there 
is complexity in our legislative proposal as it is currently 
drafted.
    Mr. Cisneros. Mm-hmm.
    Ms. Busch. We have identified more than 450 separate 
provisions of law that would need to be changed across 21 
titles of the U.S. Code and across other uncodified statutes.
    We have identified hundreds and hundreds of DOD [Department 
of Defense] issuances, Codes of Federal Regulations, DOD FMR, 
financial management regulations, and cascading down to 
guidance from the services, perhaps even laws in the various 
States.
    It is going to be a very complex thing to undertake, but 
once accomplished it will provide that simplicity that General 
Roper is talking about. And a member will have one set of 
orders. And won't need to be in six different statuses just to 
get to deployment.
    And so it is a large undertaking and I believe it is long 
overdue. And we need to get started.
    Mr. Cisneros. Well, once we start, I couldn't agree more, 
right? Because like I said, to the soldier, the sailor, the 
airman, the Marine, all they know is they have been activated 
and that is they are out there doing their duty.
    So how long is it going to take us to get to this process 
to where we can simplify it and really make sure that we are 
taking care of our service members?
    Ms. Busch. So I will say, sir, that it will need a 
significant amount of time for implementation, many years. I go 
to the Blended Retirement System. I thank the Congress that 
they gave us 2 years to implement blended retirement, but that 
was ambitious.
    And this is magnitudes larger than that so there is going 
to be a significant time that will be needed to implement this 
to get all the policies and regulations changed, to update our 
pay and personnel systems.
    You know, I am from the Navy, too, and I know that our pay 
and personnel systems would need to be updated to accommodate 
this and also to train our members, to train force managers, 
and to make sure that we are communicating well with our 
Reserve Component members and our families.
    Mr. Cisneros. All right. I am out of time so I yield back 
my time.
    Ms. Speier. I thank the gentleman.
    Now Mr. Abraham.
    Dr. Abraham. I thank you, Madam Chair.
    Ms. Busch, in its current form, the current form, does this 
DSR [duty status reform] legislation in any way change or 
modify States' rights, government's authorization, or the 
Insurrection Act?
    Ms. Busch. So sir, I would say that as it is currently 
drafted that it does preserve the prerogatives and the 
authority of the Governors and the TAGs. However, having 
another set of eyes, as General Taheri talked about, and 
getting all the TAGs to look at it and then provide us with 
their input, they have suggested some modifications and 
adjustments.
    And we are working on those even as those are being worked 
on even as we are sitting here today. And we are doing it very 
collaboratively. And we think that any other things that are 
brought up, particularly during our time when we might have 
that time period for implementation, that we will be able to 
collaboratively resolve anything that needs to be addressed.
    Dr. Abraham. And the Governors' positions? Where are they 
at this current time-- somewhat of the same?
    Ms. Busch. Yes, sir.
    Dr. Abraham. Okay, okay.
    Ms. Busch. Yes, sir.
    Dr. Abraham. So we have got to work with them.
    And then just one more question, Madam Chair.
    And this is back to you, Ms. Busch. Have you fully and for 
how long have you consulted with the States with regard to 
title 32 and other National Guard issues during the development 
of this DSR proposal?
    Ms. Busch. So in developing our proposal, sir, we have 
been, I would say, very open and transparent. And we have 
collaborated very, very closely with our colleagues, 
particularly in the National Guard Bureau about title 32 
issues. We have worked with their staff, with their counsel 
throughout the process in order to draft our DSR proposal.
    Dr. Abraham. Okay. I thank you, Madam Chair, and I yield 
back.
    Ms. Speier. I thank the gentleman.
    Ms. Haaland.
    Ms. Haaland. Thank you, Madam Chair.
    And I will likewise try to be quick. This kind of relates 
to the issue that my colleague just raised. In fiscal year 
2007, the Department inserted language that would dilute the 
Governors' authority over the Guard. That language was 
subsequently repealed permanently by Congress.
    Fast forward to today, it has been brought to my attention 
by my State's Governor, I am from New Mexico, and Guard general 
about language that changes the Governor's authority to deploy 
their Guard troops. What would be the rationale for such a 
move?
    Ms. Busch. Ma'am, I would say that that is not the move we 
are making. That we have, indeed, preserved the authority of 
the Governors, at least as best we know it.
    And but we are aware that this other set of eyes that I 
alluded to is now looking at every line of our proposal as 
currently drafted and has provided us input in identified areas 
to make adjustment. And we are making those adjustments.
    General Taheri. And ma'am, if I could, you know, I would 
say that one of the points that came up is the number of laws 
that have to be adjusted. And one of the considerations I think 
that the adjutants general are bringing to the table right now 
is that is across Federal Government.
    But across 54 States, territories and the District of 
Columbia, a lot of laws are also going to have to be adjusted. 
So there is a period of time in there in which these things are 
going to take a little bit of time to kind of settle in and 
make sure that we get all the right authorities in place.
    To the question about addressing them I would say that the 
language as yet is a work in progress. It is kind of the 
sausage that we talked about. So we continue to work to ensure 
that those authorities are there, as I mentioned in my earlier 
comments.
    And we are getting, frankly, nothing but support from OSD 
at this point in getting those comments updated and into the 
system, and our hope being that that final language represents 
and preserves those authorities in their entirety.
    Ms. Haaland. So essentially you can assure me today that 
will not be any language that dilutes gubernatorial authority 
over their Guards?
    Ms. Busch. Yes, ma'am.
    Ms. Haaland. Thank you. Thank you very much.
    Madam Chair, in closing, I would like to enter this 
bipartisan letter from the Council of Governors into the 
record----
    Ms. Speier. Without objection.
    Ms. Haaland [continuing]. Expressing concern over this 
issue.
    Ms. Speier. Without objection, so ordered.
    [The information referred to can be found in the Appendix 
on page 59.]
    Ms. Speier. All right. Next, Mr. Bergman.
    Mr. Bergman. All right. Well, thank you. By the way, this 
is like deja vu all over again. You guys look great sitting 
there in uniform. So let us get to the heart of the matter 
right away.
    In any of your deliberations in coming up with the new 
proposal did the issue of the 179-day rule come under 
discussion, as far as it is an interestingly arbitrary number 
that has been used for a long time to, if you will, control and 
count Active Duty end strength so that, you know, there were no 
violations to the law there.
    So I would just ask and just for the sake of, did you 
consider any modifications to the 179-day rule in putting this 
together?
    Ms. Busch. So sir, I would say that in constructing our 
proposal, first and foremost our focus was on aligning pay and 
benefits----
    Mr. Bergman. Okay.
    Ms. Busch [continuing]. To the nature of the work our 
members performed and working very diligently to eliminate 
those disparities where they exist.
    Mr. Bergman. Okay. Because you know there was a system 
whereby you got 179-day orders, then you did a break and the 
orders needed 30 days of drills and then you went back onto 179 
days of orders. Anybody ever heard of that one? Yes, okay.
    So anyway, now having said that, as you look at the 
administration, your, you know, admin in the units once this is 
implemented, do you sense more or less or the same amount of 
administrative time to actually get the orders right, as 
opposed to, let us say in the civilian world where someone 
works for a company and they can go their HR [human resources], 
type in their password, check their benefits, do all of those 
things, submit the stuff. And was any of that considered in 
this?
    Ms. Busch. We certainly did consider that----
    Mr. Bergman. Okay.
    Ms. Busch. What we needed to do to streamline processes and 
procedures. And we think that our proposal as it is currently 
drafted today does that.
    Mr. Bergman. Okay. So then the assumption that, if you 
will, the use of, again, human resources personnel systems that 
exist throughout the world rather than reinventing the wheel 
when it came to these systems, pick your large corporation that 
does some--that has hundreds of thousands of employees that it 
works. So to utilize that?
    Ms. Busch. Sir, I would say that, you know, as a former 
personnel officer myself I was very mindful of the work that 
would have to be done down at the field level to administer 
this.
    Mr. Bergman. Well, it----
    Ms. Busch. We do know that in order to implement it, 
though, we are going to need changes to our pay and personnel 
systems to accommodate this.
    Mr. Bergman. So you used the number, 450 laws need to be 
changed. You got a list?
    Ms. Busch. So there are----
    Mr. Bergman. Give us the list. That is what Congress does. 
We make and modify laws, do technical corrections. That is our 
job here.
    Ms. Busch. That we do have a draft----
    Mr. Bergman. Okay.
    Ms. Busch. Legislative proposal. It is under review right 
now at OMB.
    Mr. Bergman. Well, is OMB expected to look at all 450 
potential changes? Why don't we as the people who will actually 
start looking at that, what is the prohibition that we can't 
look at it, too?
    Regardless of the dollar figure, not scoring it, but for us 
who want to look at what we need to change and kind of give us, 
you know, running in parallel as opposed to linearly.
    Ms. Busch. Sir, I have to say that OMB is tasked and 
chartered to review this proposal and to clear it for 
transmission to the Congress. And I am unable to----
    Mr. Bergman. Okay. Well, then I will thank you for your 
very diplomatic answer.
    Madam Chair, I yield back.
    Ms. Speier. I thank the gentleman.
    Mrs. Davis.
    Mrs. Davis. Thank you, Madam Chair, and thank you to all of 
you.
    And quickly I am going to ask sort of a series of questions 
and maybe to clarify where we are, even though we don't have 
the document and I appreciate that and understand where this 
is.
    The current activation authorities which we are all aware 
of in title 10 have various limitations on which categories a 
reservist can be activated, for how long, and for what purpose. 
Does the proposed legislation modify these limitations in any 
way?
    Ms. Busch. Yes, ma'am. I know you have a set of slides in 
front of you, so if you would turn to slide 6 I think that 
might help you. So if you look at it over to the left is a lot 
of the different authorities you have just alluded to.
    [The slides referred to were not available at the time of 
printing.]
    Ms. Busch. Under our proposed construct, our initiative 
concept, we would simplify and streamline all of those separate 
and distinct statuses and authorities into these four 
categories. Approximately eight actual authorities for recall 
or for utilization of our Reserves and then key is to align the 
pay and benefits to those categories.
    So it does. It streamlines across what we need in order to 
be able----
    Mrs. Davis. I think what I am looking for----
    Ms. Busch [continuing]. To utilize.
    Mrs. Davis [continuing]. In some of this is just the 
rationale in some cases for the changes. And particularly in 
light of how you balance, really, the needs of the Armed Forces 
for access to the Reserve Components and the impact of 
activation that occurs on the reservists and their civilian 
counterparts or civilian employment?
    Ms. Busch. So ma'am, all I will say to that is that we have 
worked very hard to make sure we balance between the demands of 
warfighters and the demands of the Nation for the utilization 
of our Reserve Component. And to preserve and protect our 
individual Reserve Component members against capricious or 
arbitrary recall or utilization.
    But I will defer to my colleagues to speak specifically.
    Mr. Barrett. Ma'am, I would say the initial legislation, it 
talked about duty status reform because that is what a number 
of studies and commissions have looked at, about six 
historically over the last 10 years. It was actually more of a 
benefits reform was honestly the target.
    The statuses, to a certain degree it is software and you 
can type it in and you can build whatever computer system you 
want, but it was the benefit mismatch. I think you had heard 
there were in particular two mishaps that had occurred in 
aviation where members were under different statuses and then 
we had to tell families that they receive different benefits. 
So that was really the catalyst----
    Mrs. Davis. Mm-hmm, right.
    Mr. Barrett [continuing]. To focus on benefits.
    Mrs. Davis. I think sometimes it is hard for us to, you 
know, be in the room, so to speak. And I am just looking for, 
you know, in those grey areas when you are trying to make that 
determination, I mean, are there some examples like that, 
particularly in light of this area about which category could 
be activated?
    Take also whether or not the duration of training, you 
know, regarding 15 days per year, for example. I mean, where 
does that factor in in terms of thinking about balancing those 
needs? Because when it comes to Reserves, as you know, we are 
talking about their civilian employment.
    Are there any new issues that came to light as a result of 
this more intense look and what did that look like?
    General Scobee. So Congresswoman Davis, what I would say to 
that is that as we were going through this duty status reform, 
a lot of it was looking at how we mobilize and get our airmen 
trained and out the door for a combat deployment is really what 
it revolved around. So all the work that OSD did was really 
focused on those things.
    I would say from each of our perspectives, especially as 
the Chief of the Air Force Reserve, what I look at is what you 
are talking about, is how I do my normal organize, train, and 
equip for my airmen?
    And so I have a lot of different authorities that we use 
for that. It is our normal individual drill periods that we use 
along with our annual tour. And we can raise or lower that, or 
raise it at least, from 14 days to even more than that if 
necessary to get after our readiness issues that we are dealing 
with.
    But that is something that we do far in advance as we build 
that white space, but we build that time in our airmen's lives 
but we also build the continuity. So we are looking at giving 
them a stable environment that they can work with their 
employers to take that time off.
    This doesn't change any of that. We would still work that 
into our annual training plans for our airmen.
    Mrs. Davis. Okay. And taking into account recruitment, 
retention, how does that impact even the fact that you have the 
Reserves to work with?
    General Scobee. Yes, ma'am. So you are exactly right. 
Retention is a huge piece of this. The duty status reform is 
going to help us with retention because it makes it easier for 
our airmen and less confusing for their families.
    Mrs. Davis. Okay, thank you. My time is up. Are we ready to 
go. Thank you.
    Ms. Speier. I thank the gentlelady.
    Now Mr. Mitchell.
    Mr. Mitchell. Thank you, Madam Chair, and I will be brief. 
I understand votes have started.
    With changes in elections of Governors we have changes in 
TAGs. It has happened in Michigan. There are a number of 
States. So my first question would be is how we have ensured 
the engagement with those TAGs are not in the dark or trying to 
not be behind the curve versus everybody else. How have we done 
this to make sure that they are engaged?
    Ms. Busch. So Congressman, from an OSD perspective I will 
tell you that what we have done is try to be as open and 
transparent and make ourselves available to TAGs when called 
upon. But we have worked very closely and collaboratively with 
our colleagues in the Guard Bureau, so I will defer to my 
colleague on that.
    General Taheri. Yes, sir. I mean, as we did the build in 
this a number of time when the adjutants general might get 
together we would make sure that we were giving them briefings. 
We were giving them updates. We were doing those kinds of 
things along the way.
    But as I think I alluded to a little bit earlier, sometimes 
it is one thing when you see it on a PowerPoint presentation; 
it is another thing when you see words show up on a piece of 
paper.
    So I think that what we are trying to do, at least at this 
point, and we have been now for a couple months, is we have 
been very actively working almost daily with a working group 
that has been designated by the adjutants general.
    And then, you know, just as I was walking in this room I 
sent five or six of the key TAGs a quick note of some of the 
other language that we are working on right now that are 
proposals that might, you know, take care of some of the 
concerns that they brought up.
    So there is a lot of back and forth, literally almost daily 
at this point as we try to come in----
    Mr. Mitchell. I would ask is that I know Michigan has a new 
one and to make sure we reach out to them and get them up to 
speed because with those changes it causes a great deal of 
turmoil. I can't be the only State that this is, you know, we 
need to make sure what is going on here.
    General Taheri. Yes, sir.
    Mr. Mitchell. It is because they are big changes, 
obviously.
    One other quick question, the order of this transition. You 
noted 450 laws, how many regulations. Do we have to weave this 
whole tapestry before we begin the transition? Or how do you 
envision this happening?
    Ms. Busch. So I think that you can even imagine with our 
initiative that it would be several lines of effort as we move 
toward implementation. Certainly policies would have to be 
positioned, and as we said, there are tremendous numbers of 
regulations, including in the CFR [Code of Federal 
Regulations], et cetera.
    Mr. Mitchell. Yes.
    Ms. Busch. But at the same time that that is going on we 
envision that there will be an education and communication 
going on, that there will also be changes to our pay and 
personnel systems as new systems have to be deployed to 
accommodate this.
    So we imagine much of it will be going on in parallel, but 
it will still take a significant time.
    Mr. Mitchell. Let me reword the question real quickly, 
which is you are not under some anticipation that we are going 
to fix all 450 laws in some period of time quickly that is 
going to enable you to then proceed, are you? Because after 27 
months here I know better.
    Ms. Busch. Well, sir, perhaps I am a bit optimistic, but 
our proposal as currently drafted does make all those changes.
    Mr. Mitchell. In one bill?
    Ms. Busch. Yes, sir.
    Mr. Mitchell. Well, I will join the General Bergman. And we 
can't wait to see that, Jim.
    [Laughter.]
    Mr. Mitchell. So with that, Madam Chair, I will yield back 
as we do have votes.
    And thank you for the responses. Thank you very much.
    Ms. Speier. I thank the gentleman.
    For members, we have about 6 minutes left in the vote? 
About 5 minutes left in the vote, so feel free to leave as you 
deem it appropriate.
    I want to thank you all for being here. I am going to be 
very quick with my questions. I think everyone has been 
wrestling with the same issue. You have said, a number of you 
have said, it is going to take many years for implementation.
    And that is disquieting to us because we have been dealing 
with this for some time now. If it is in one bill and it is 
passed, you are then saying it is just the regulations that 
have to be crafted in order to implement the bill. Is that what 
you mean by that?
    Ms. Busch. Well, Madam Chair, as I kind of alluded to, 
there will still be several lines of effort, not the least of 
which is to make sure our systems can accommodate the change. 
And that is a major undertaking----
    Ms. Speier. So for instance----
    Ms. Busch [continuing]. As well as all the regulatory 
matters that need to be taken care of. But I feel that 
importantly we have to have time to be able to go out and 
educate our members in what this new construct will be like and 
also to educate our force managers and to be able to prepare 
members for the transition.
    Ms. Speier. Well, Lieutenant General Scobee I think made a 
very important point when he said that all of a sudden his 
family was bare in terms of health care services. I don't think 
we want any of our service members, whether they are National 
Guard or Active Duty or Active Duty National Guard to be in a 
situation where they are without health insurance.
    So that, to me, would be a high priority to make sure it is 
implemented immediately. Is that your belief as well?
    Ms. Busch. So ma'am, I would say that one of the things we 
have thought through is to try and make sure that we are, as an 
interim measure as things come about, that we address those 
sorts of issues that you just raised.
    In fact, I would thank the Congress for going ahead and 
enacting legislation that allowed us to equalize SBP [Survivor 
Benefit Plan] between deaths on Active Duty versus deaths on 
Inactive Duty.
    And I imagine that over the time we implement this, just as 
we did with blended retirement, that we continue to make those 
kinds of adjustments as necessary.
    Ms. Speier. So for all those Governors that are wringing 
their hands about losing authority, once this OMB document is 
released everyone will have access to it. You will be willing 
to take input from those that feel that the language is not as 
clear as it should be? And you are nodding your head yes.
    Ms. Busch. Yes, ma'am.
    Ms. Speier. All right.
    Ms. Busch. Yes, ma'am.
    Ms. Speier. And then finally, I am on page 5. Category one 
says, Active service as determined by the Secretary of Defense 
in which the members may become involved in military actions. 
And then category two is Active service as determined by the 
service secretary that does not meet category one.
    Category one says may become involved in military actions. 
I could conceive of a set of circumstances where you would have 
someone in category one that is equal to someone in category 
two because they may not be in an military action. They just 
may be in military--that language concerns me a little bit.
    Ms. Busch. So ma'am, I think what we are trying to say 
there is that they could be involved in a military action or an 
operation or perhaps a response to a natural disaster. So we 
are just trying to talk about the different forms of 
operational-type of duty that this category represents.
    Ms. Speier. So okay. So what you are saying then are either 
involved in A, B, and C as opposed to may be involved in A, B 
and C. So that language ``may'' will probably not be in the 
document we see. All right. Okay.
    I think that answers all of my questions. I think everyone 
else has felt compelled to go vote and I will as well, but if 
you have any final words we would be happy to hear them.
    Ms. Busch. So ma'am, Madam Chair, I just want to echo the 
words you started out with. There is a piecemeal patchwork of 
authorities today and duty status reform is long overdue. And I 
thank the committee for your unwavering support of our Reserve 
Component members and their families. But I urge the committee 
to support our proposal.
    Ms. Speier. All right. Anything else? Ditto.
    Okay. With that, the committee stands adjourned.
    [Whereupon, at 4:50 p.m., the subcommittee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                             March 27, 2019

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 27, 2019

=======================================================================

      

 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 


      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             March 27, 2019

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
 
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 27, 2019

=======================================================================

      

                   QUESTIONS SUBMITTED BY MRS. DAVIS

    Mrs. Davis. The current activation authorities in title 10 have 
various limitations on which categories of reservists can be activated, 
for how long, and for what purpose. Does the proposed legislation 
modify these limitations in any way? If so, what was the rationale for 
the changes? How much weight did you give to balancing the needs of the 
Armed Forces for access to the Reserve Components and the impact of 
activation on the reservists and their civilian employment? Would the 
new authorities permit more frequent use of the Reserve Component, 
perhaps to the extent of adversely affecting recruiting and retention?
    Ms. Busch. Today, multiple duty statuses produce complex rules and 
procedures that are highly inefficient, inhibit volunteerism, and 
increase the difficulty of accessing Reserve Component members to 
perform operational missions. With the extensive involvement of 
stakeholders across government, our draft proposal attempts to 
streamline Reserve Component duty statuses and align pays and benefits 
according to the nature of the work Reservists and Guardsmen perform. 
In developing its draft proposal, the Department has maintained the 
duration and strength limitations that exist under current law. It did, 
however, reorganize the activation authorities, along with separating 
out, streamlining, and reorganizing activation purposes, in order to 
achieve the goal of creating four, broad duty-status categories (based 
on the nature of the work) and aligning pays and benefits to those 
categories. Throughout DOD's reform effort, ensuring judicious and 
prudent use of the Reserve Components, i.e., striking the right balance 
between employment of/access to Reserve Component forces versus 
adversely impacting individual RC members, was a fundamental, abiding 
principle in the development of its current draft proposal. Further, 
the Department does not expect the draft proposal would permit any more 
frequent use of the Reserve Components than is allowed under current 
law, and it will not adversely affect recruiting and retention.
    Mrs. Davis. At present, title 10 limits the duration of annual 
training to ``not more than 15 days per year.'' Does the proposed 
legislation modify this cap? If so, what was the rationale for the 
changes? How much weight did you give to balancing the needs of the 
Armed Forces to train Reserve personnel and the impact of activation on 
the reservists and their civilian employment? Might the proposed 
legislation permit longer annual training missions for reservists, 
perhaps adversely affecting recruiting and retention?
    Ms. Busch. The Department's draft proposal focuses upon 
streamlining the existing authorities and aligning pays and benefits. 
Where possible, our goal was to maintain certain current limitations as 
they exist today in law and align pays and benefits with the nature of 
the work performed. Our proposal does not modify the limitations in 10 
USC Sec. 10147, which specifies that annual training shall be no less 
than 14 days per year and shall not exceed 30 days per year. 
Furthermore, the Department recognizes and is always sensitive to the 
impact and disruption of activation on both the lives of Reserve 
Component service members and their civilian employers, as well as the 
needs of our operational commanders. Throughout its reform effort, a 
fundamental abiding principle of the Department was to ensure its 
proposal (as currently drafted) struck the right balance between 
employment of/access to Reserve Component forces versus adversely 
impacting individual RC members and their employers.
    Mrs. Davis. According to the briefing slides provided by the 
Department, benefits will be somewhat more generous for those 
performing Category I active service in comparison to Category II 
active service. Can you tell me how the service member will know if 
they are performing Category I or Category II active service? Will it 
be clearly annotated on their orders? Will DOD pay systems recognize 
the four categories of service and automatically provide the 
appropriate benefits?
    Ms. Busch. The Department's draft proposal would streamline the 
authorities into several categories, aligning each with specific pays 
and benefits. Service members will know which category they are in 
because, like today, the authority/category will be clearly specified 
on their orders [of note: DOD's draft legislation even aligns the 
numbering of the proposed U.S. Code duty status authority sections with 
the categories] and because the Department intends to spend significant 
time, effort, resources necessary to properly educate the Reserve 
Component force managers, service members, and families prior to 
implementation. Furthermore, part of the implementation process will 
include transitioning the Services to integrated personnel and pay 
information technology systems, which will better track and administer 
a Service member's orders and the requisite pays and benefits 
authorized for a given category.
    Mrs. Davis. If a service member were to change from Category I to 
Category II, would he or she receive official notification of this? Can 
you describe the process by which an individual might transition from 
Category I active service to Category II active service? Would this be 
seamless to the individual? Would a member of the Active Guard and 
Reserve program who provides support to a deploying unit be considered 
Category I or Category II?
    Ms. Busch. Under the Department's draft proposal, the driving force 
is the nature of the work the member is performing. If the member's 
assignment changes but the nature of the work remains the same the 
Category would remain the same and, most importantly, there would be no 
disruption to the member's pays and benefits. If the nature of the work 
changes significantly, the Category may change. If the category 
changes, the member would receive new orders. Once fully implemented 
(especially inclusion of the Services' transition to integrated 
personnel and pay information technology systems as part of the 
implementation), this type of transition from one Category to another 
should be seamless. If an Active Guard and Reserve service member is 
providing support to a deploying unit, but not deploying with the unit, 
the member will remain on Category II duty. If deploying with a unit, 
however, they would be treated in the same manner as service members in 
the active component who deploy.
    Mrs. Davis. According to the briefing slides provided by the 
Department, those members of the National Guard and Reserve performing 
Category II active service would receive different rates of Basic 
Allowance for Housing depending on the duration of their service. What 
was the rationale for providing different benefits to individuals 
performing the same category of service? Is this consistent with the 
intent of the section 513 of the FY2018 NDAA to align benefits with 
duty categories?
    Ms. Busch. The 30-day threshold to receive Basic Allowance for 
Housing (BAH) (unless supporting a contingency operation) is the same 
threshold that exists today. Over the course of our reform effort we 
reviewed close to 100 provisions of law relating to pays and benefits 
affecting Reserve Component members, including the qualifications for 
the pays and benefits. In many cases during our review, we determined a 
qualification(s), such as the 30-day BAH threshold, was appropriate/
effective, and therefore, a change was not included in the Department's 
draft proposal. Unlike today's pay and benefits system, our draft 
proposal minimizes, to the maximum extent practicable, disruptions in 
pay and benefits for members, and adheres to the principle that Reserve 
Component service members should receive pay and benefits commensurate 
with the nature and performance of the their duties. It also creates a 
system where members within a category will be eligible to receive the 
same benefits provided they meet the requisite eligibility criteria. 
For example, just as is the case for an active component member, a 
Reserve Component member deployed under Category I would only receive 
Imminent Danger Pay (IDP) or Combat Zone Tax Exclusion (CZTE) benefits 
if the Category I deployment was to a designated IDP area and/or CZ. As 
another example, the 90 aggregate days of service threshold would still 
need to be met for a Reserve Component service member to receive credit 
for reduced age eligibility for retired pay. The Department believes 
the approach it took and the determinations it made during the pays and 
benefits review portion of its Reserve Component Duty Status Reform 
effort is consistent with the intent of section 513 of the National 
Defense Authorization Act for Fiscal Year 2018.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. GALLEGO
    Mr. Gallego. I understand that Governors have been clear that they 
do not accept that changing the Insurrection Act statute that exists in 
title 10, chapter 13, is necessary to complete duty status reform. Are 
you changing chapter 13 of title 10 in any way?
    Ms. Busch. The provisions of Title 10 Chapter 13 have been 
reorganized into Category I duty. In developing the proposal, we worked 
transparently and collaboratively with each Service, as well as 
stakeholders across government. We specifically worked with the 
National Guard Bureau and representatives from the states. To ensure 
consistent interpretation with past practice, together we agreed that 
it is critical, and our draft proposal specifies, that no current 
authorities from the Insurrection Act statute shall have been deemed to 
have changed as a result of this reorganization.
    Mr. Gallego. Do the Adjutants General support changes to the 
Insurrection Act, the requirement to obtain a Governor's permission to 
use Guardsmen for domestic operations, or the migration away from unit-
based organization and training?
    Ms. Busch. The National Guard Bureau convened a working group, 
which included five state representatives, to address the concerns of 
various states Adjutants General. Together, we considered and 
adjudicated each of the recommendations from that work group in 
developing the Department's draft proposal. We consulted and worked 
transparently with organizations and stakeholders not just within the 
DOD, but across government. As the Department's draft proposal moves 
forward, it will require multiple years to implement after enactment, 
and we pledge to continue to work with relevant federal departments and 
agencies, as well as the states and territories, to address any 
concerns and make necessary revisions in the interest of our combatant 
commanders, Reserve Component force managers, state governors and 
Adjutants General, and, most importantly, Reserve Component Service 
members.
    Mr. Gallego. Does duty status reform fundamentally change the way 
the Guard is controlled and accesses? In what ways?
    General Taheri. My understanding is that the Duty Status Reform 
(DSR) proposed legislation is not intended to change the authorities of 
Governors and the Adjutants Generals to approve all Title 32 National 
Guard missions.
    Mr. Gallego. How does the National Guard Bureau view this 
legislation with respect to limiting or otherwise affecting the 
authority of Governors over their State Guards?
    General Taheri. The State Adjutants Generals, and the Council of 
Governors maintain that the existing authorities of Governors over 
their state Guard should remain safeguarded in the proposed Duty Status 
Reform (DSR) legislative action process. My understanding is that the 
DSR legislation is not intended to nor should it affect the existing 
authorities of Governors and Adjutants Generals over their National 
Guard and their authority to approve all Title 32 missions.

                                  <all>
</pre></body></html>
